No.

IN THE SUPREME COURT OF THE UNITED STATES

QUINN ALEXANDER MAREZ,
Petitioner
v.
GUILLERMO VIERA ROSA,
Respondent

CERTIFICATE OF SERVICE FOR PETITION FOR A WRIT OF CERTIORARI

I, Wesley Van Winkle, counsel for petitioner, pursuant to Supreme Court Rules
29.3 and 29.5(b), hereby certifies that on this 15th day of April, 2021, a true and correct
copy of this petition for a writ of certiorari and its appendix, certificate of word count
and certificate of service is being served to those listed below by depositing the same
with satisfactory postage in a postbox of the United States Postal Service.
Julie Ann Harris
CAAG - Office of the Attorney General
California Department of Justice
300 South Spring Street Suite 1702
Los Angeles, CA 90013
I further certify that all parties required to be served have been served.

/s/ Wesley A. Van Winkle
Wesley A. Van Winkle
P.O. Box 2516
Eugene, OR 97402

Counsel for Petitioner

